Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    HOSPITAL OWNERSHIP OF
     PHYSICIAN PRACTICES




                   JUNE GIBBS BROWN
                    Inspector General

                     SEPTEMBER 1999
                      OEI-05-98-00110
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago office prepared this report under the direction of William C. Moran, Regional
Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal OEI staff
included:

REGION                                               HEADQUARTERS

Thomas Komaniecki, Project Leader            Jennifer Antico, Program Specialist
Suzanne Johnson
                                   EXECUTIVE             SUMMARY


PURPOSE

          To examine the potential impact on the Medicare program and beneficiaries and the
          inherent fiscal vulnerabilities that exist from hospital ownership of physician practices.


BACKGROUND

          As part of the changing healthcare market, hospitals as well as other entities have been
          purchasing physician practices. An outcome of these purchases is the ability of hospitals
          to obtain reimbursement for services provided in these practices. While hospitals have
          historically operated outpatient clinics on their campuses, many of the newly acquired
          practices are located in different cities or States and not on the hospital grounds. The
          location and operation of these clinics raise questions regarding the payment mechanism
          Medicare should use for the services provided by these purchased practices.

          Hospitals have two options regarding how to account for their purchased physician
          practices. They can treat them as free-standing or as part of the hospital, referred to as
          provider-based. If a hospital treats the physician practice as part of the hospital, then the
          hospital can include the operating costs of the practice in the hospital’s cost report.
          Medicare reimburses hospitals using interim payments which are reconciled with the
          hospital’s actual costs at the end of the cost reporting period. The payments for these
          provider-based services are typically higher than the payment for services provided in a
          free-standing physician office.

          If the hospital elects to treat the physician practice as free-standing, payments are made by
          the Medicare carrier using the Physician Fee Schedule. If the hospital provides any type of
          service to the practice, the hospital should establish a nonreimbursable cost center in its
          cost report to capture and exclude the costs associated with the practice.

          Medicare needs to be aware of hospital purchases of physician practices and how these
          hospitals are accounting for and treating them in their cost reports. This information is
          needed to ensure that appropriate payments have been made.


FINDINGS

Hospitals are purchasing and operating physician practices in significant
numbers

          Based on our review, we estimate that 62 percent of for-profit and not-for-profit general,
          short-term hospitals purchased or owned a physician practice.


Hospital Ownership of Physician Practices           1                                       OEI-05-98-00110
Fiscal intermediaries are frequently unaware of hospital ownership of physician
practices

          Of the hospitals we identified as owning physician practices, fiscal intermediaries (FIs)
          knew about the ownership 50 percent of the time. This lack of knowledge could lead to
          the inability of the FIs to ensure that physician practices are properly accounted for in
          hospital cost reports.

Lack of knowledge of hospital ownership of physician practices presents a fiscal
vulnerability to the Medicare program

          If a hospital chooses to handle a practice as provider-based and the practice meets the
          criteria for provider-based status, then Medicare requires the hospital to report the costs
          and charges of the practice as reimbursable services in the cost report. However, if a
          hospital fails to seek provider-based status for their practice, but claims the costs for the
          practice in the cost report, Medicare could be paying excessive amounts for services
          provided in the practice.

          If the hospital elects to treat the physician practice as free-standing, the hospital excludes
          the costs of operating the practice from Medicare reimbursement through the cost report.
          Medicare requires the hospital to report the costs of operating the practices but must
          indicate that they are nonallowable costs. If a hospital fails to do so and the FI fails to
          detect the error, a substantial amount of Medicare reimbursement could be in question.

          Most likely the FI would never discover these situations unless the FI conducted a full
          scale audit. Few hospitals are subject to full scale audits. The net result is that potentially
          overhead and operating costs for these purchased practices are paid twice or hospitals are
          receiving reimbursement for practices that do not meet the provider-based criteria.

Current HCFA efforts begin to address this issue, but may not go far enough

          The Health Care Financing Administration (HCFA) has taken some steps to gather
          information about hospital purchase of physician practices although the steps are limited.
          Effective June 1998, hospitals were required to report to the FI’s any current purchase of
          physician practices. They are not required to report past purchases.

          Also, in December 1997, HCFA published proposed regulations changing the conditions
          of participation for hospitals. As part of the proposed regulations, HCFA would require
          that hospitals report purchases of physician practices if a hospital plans on seeking
          provider-based status for the practice. However, the regulations do not require that a
          hospital report a purchase of a physician practice if it elects to treat the practice as free-
          standing.




Hospital Ownership of Physician Practices            2                                       OEI-05-98-00110
Provider-based status increases beneficiary coinsurance with questionable
benefit to Medicare and its beneficiaries

          The provider-based designation allows hospitals to shift costs to facilities subject to cost-
          based reimbursement. A provider-based designation results in increased Medicare
          payment with no apparent benefit for Medicare or the beneficiary. In addition, a
          beneficiary’s coinsurance is higher for services furnished in provider-based physician
          practices than for services provided in free-standing physician practices.

          If a hospital elects to treat a practice as provider-based, then a beneficiary is responsible
          for 20 percent of the hospital charges as well as 20 percent of the reduced Physician Fee
          Schedule for the physician’s services. These payments are often two to three times greater
          than the coinsurance for services provided by a free-standing practice. If beneficiaries are
          being treated in facilities that do not meet the provider-based criteria, but hospitals are
          billing as if they did, then beneficiaries are paying excessive coinsurance amounts.
          Proposed regulations will change the methodology used to compute a beneficiary’s
          coinsurance. However, for some outpatient services, this process may be lengthy and
          beneficiaries will be subject to artificially high coinsurance rates for the duration.


RECOMMENDATIONS

          Provider-based status for hospital owned physician practices has a significant impact on
          both Medicare and its beneficiaries. At issue is whether the site, or ownership of the site,
          where the service is rendered should dictate a higher payment amount by the Medicare
          program and the beneficiary.

We recommend that HCFA change its policy and eliminate the provider-based
designation for hospital owned physician practices.

          The HCFA should require that hospitals treat all purchased physician practices and those
          they currently own, as free-standing entities. The HCFA could make exceptions for long-
          standing clinics located on contiguous hospital campuses. Monitoring of hospital
          compliance will be necessary. Procedures will need to be developed to ensure that
          hospitals are not billing for services provided by these entities and receiving payments
          other than under the Physician Fee Schedule.

          Under the proposed outpatient prospective payment system, hospitals may continue to
          have an incentive to treat acquired physician practices as provider-based, since some rates
          may result in higher payment for services performed in provider-based facilities versus
          payment for those same services performed in free-standing facilities.




Hospital Ownership of Physician Practices           3                                      OEI-05-98-00110
We recommend that HCFA require hospitals to report all purchases of physician
practices or clinics and declare how the costs associated with the operation of
these entities are handled in hospital cost reports.

          Regardless of whether HCFA eliminates provider-based status, it will continue to be
          important that fiscal intermediaries be aware of current and past purchases of physician
          practices.

          We offer solutions on how HCFA can implement this recommendation. We believe
          hospital purchases of physician practices are wide spread. Currently, neither HCFA nor its
          fiscal intermediaries have a good handle on whether hospitals are handling the operating
          costs associated with these purchases correctly in the cost reports.

We recommend that HCFA seek legislation to sanction hospitals for failure to
report the ownership of physician practices.

          Hospitals failing to inform HCFA or its fiscal intermediaries of the ownership and
          purchase of physician office practices, regardless of whether these physician offices are
          provider-based, free-standing or were past purchases, should be sanctioned.


AGENCY COMMENTS

          We requested and received comments from the Health Care Financing Administration.
          Their comments are included in Appendix B. The HCFA concurred with two of our three
          recommendations. They did not concur with our recommendation to change its policy and
          eliminate provider-based designation for hospital owned physician practices.

          The HCFA recognizes that the current system may result in abuse of Medicare's payment
          system in some cases. They state that it would be difficult to construct rules that
          differentiate physician practices from outpatient clinics to include one and exclude the
          other from designation as provider-based. In the long run, HCFA believes the most
          effective alternative to avoid abuse of the payment system is to move further toward the
          elimination of the differences in payments across sites that make advantageous the
          designation of physician practices as provider-based.

          We appreciate HCFA’s positive response to our report. We agree with their long-term
          plans of eliminating differences in payments for similar services across sites. However, we
          are uncertain whether the current set of provider-based standards, as well as the proposed
          set of regulations, can adequately safeguard Medicare’s payment system. We are
          currently examining the process of designating facilities as provider-based. We hope that
          the results of this additional work will be helpful in resolving the problems that remain
          with the current system.




Hospital Ownership of Physician Practices           4                                     OEI-05-98-00110
                                 TABLE                   OF            CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS


          Hospitals Purchasing Physician Practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Medicare Unaware of Many of These Purchases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Medicare Program Vulnerable to Erroneous and Excess Payments . . . . . . . . . . . . . . . . 10


          HCFA Efforts May Not Be Enough . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Provider-Based Increases Beneficiary Costs With Questionable Benefit . . . . . . . . . . . . 12


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDICES


          HCFA Program Memorandum . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


          Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23





Hospital Ownership of Physician Practices                        5                                                 OEI-05-98-00110
                                            INTRODUCTION


PURPOSE

          To examine the potential impact on the Medicare program and beneficiaries and the
          inherent fiscal vulnerabilities that exist from hospital ownership of physician practices.


BACKGROUND

          As part of the changing healthcare market, hospitals, as well as, other entities have been
          purchasing physician practices. For hospitals, one of the major reasons to purchase
          physician practices is to establish physician networks to compete with managed care
          products being offered by insurance companies. An outcome of these purchases is the
          ability for hospitals to obtain reimbursement for services provided in these practices.

          While hospitals have historically operated outpatient clinics located on their campuses,
          many of the newly acquired practices are not located on the hospital grounds. Some of
          these newly acquired practices are located in different cities or States. The location and
          operation of these clinics raise questions regarding the payment methods Medicare should
          use for the services provided by these purchased practices.

Medicare Reimbursement Options

          It is the Health Care Financing Administration’s (HCFA’s) policy that a hospital may treat
          an acquired physician practice as either provider-based or free-standing. The hospital’s
          decision on how to treat the practice will affect the amount of payment received by the
          hospital for physician services rendered in the practice.

          Option one is to treat the facility as provider-based. In essence, the hospital treats the
          purchased physician practice as if it were a hospital outpatient department. If the hospital
          wishes to treat the practice as provider-based, the hospital must submit an application to
          HCFA requesting provider-based status. The HCFA has established eight criteria that a
          physician practice must meet before HCFA grants provider-based status.1 These criteria
          deal with such issues as: the physical location of the entity, the patient population served,
          and the type of control and governance exhibited by the hospital over the practice. (See
          Appendix A for the list of criteria.)

          Once HCFA grants provider-based status, the hospital may receive reimbursement for
          services provided in the purchased facility using the reasonable cost reimbursement
          method. This is the same payment method used for services provided in hospital
          outpatient departments. Reimbursement for services in a provider-based practice, as well


          1	
                    The Office of Inspector General is currently working on a report that examines how HCFA approves
                    provider-based status.

Hospital Ownership of Physician Practices                    6                                              OEI-05-98-00110
          as in a hospital outpatient department, generally include both a facility payment and a
          payment for the service or procedure performed. Under the reasonable cost
          reimbursement method, Medicare reimburses hospitals for either the costs or charges for
          services2 provided by hospital outpatient departments or provider-based physician
          practices, whichever is lower. Medicare reimburses hospitals using interim payments
          which are reconciled with the hospital’s actual costs at the end of the cost reporting
          period. To determine the costs of providing services, Medicare requires hospitals to file
          an annual cost report. Included in this cost report are all the overhead and operating costs
          associated with operating the hospital as well as any physician practices the hospital owns.

          In addition, the hospital can also submit a separate claim to the Medicare carrier for the
          physician’s professional services. Medicare pays for these services using the Physician
          Fee Schedule.3 If the hospital properly codes the claim as provider-based, the Medicare
          carrier adjusts the amount paid for the practice’s operating and overhead costs which have
          already been paid by the fiscal intermediary (FI) through the cost report. If the hospital
          does not properly code these claims, Medicare will erroneously pay overhead costs twice.
          The combined payments for these provider-based services are typically higher than the
          payment for services provided in a free-standing physician office.

          Option two is to treat the facility as free-standing. If the hospital treats the purchased
          practice as a free-standing practice, then it does not have to meet any of HCFA’s criteria
          for provider-based status. The hospital submits claims for services provided in the free-
          standing practice to the Medicare carrier which pays these claims under the Physician Fee
          Schedule.

          The Physician Fee Schedule payment includes portions for both the physician’s
          professional service as well as for the costs incurred in operating a physician’s office. If a
          hospital provides any services to the free-standing practice, the hospital must establish a
          nonallowable cost center on their cost report that captures any costs 4 associated with
          operating the purchased physician practice.




          2	
                    The Congress has legislated a number of different payment methods for specific types of hospital outpatient
                    services. The methods include a fee schedules for clinic laboratory services and payments based on blends
                    of hospital costs and the rates paid in other ambulatory settings. Nevertheless, payment for services
                    performed in a hospital outpatient setting remains largely cost-based.
          3	
                    The Physician Fee Schedule consists of three main components, the physician’s work, the practice expense
                    and the malpractice insurance expenses. Physicians are paid under this fee schedule regardless of setting.
                    The physician work and malpractice expense components are constants, irrespective of the setting in which
                    the service is performed. However, for some services, the practice expense component is reduced by 50
                    percent when these services are provided outside the physician office setting. This is done because it is
                    assumed that the practice expense component reflects the operating costs of the physician’s office. When
                    these services are performed in a hospital outpatient department or provider-based physician office, the
                    physician office operating costs are subsumed in the facility payment.
          4	
                    Examples of costs that hospitals should include in the nonreimbursable cost center are administrative
                    services, medical records and maintenance.


Hospital Ownership of Physician Practices                      7                                               OEI-05-98-00110
          These nonallowable costs are not reimbursable by Medicare because the Medicare carrier
          has already paid the hospital using the Physician Fee Schedule. The overall effect of
          nonallowable cost centers on a hospital cost report is to lower the outpatient costs claimed
          by the hospital. However, if the hospital does not identify the costs associated with
          operating a physician’s practice as nonallowable then Medicare will reimburse the hospital
          twice.


METHODOLOGY

          To examine the potential impact of hospital purchases of physician practices on the
          Medicare program, we selected a stratified random sample of 100 for-profit and 100 not-
          for-profit general, short-term hospitals.5 We did not contact the sampled hospitals directly
          to question them regarding their purchase of physician practices. Rather, we identified
          whether the hospitals purchased practices through other means.

          For our sampled hospitals, we used the following methods to determine whether there
          appeared to be an affiliation between our sampled hospitals and physician practices:

          <         An Internet search for any sites that discussed or showed the appearance of
                    physician practices purchased or operated by our sampled hospitals.
          <         A phone book search of listings looking for physician practices that are advertising
                    using logos, symbols or the names of our sampled hospitals.
          <         A request to the fiscal intermediaries for any information regarding the purchase or
                    ownership of a physician practice by our sampled hospitals.
          <	        A request to the HCFA regional office for any information they may have
                    concerning the purchase or ownership of a physician practice by our sampled
                    hospitals.
          <	        A search of the American Hospital Association’s (AHA’s) data regarding hospital
                    ownership of physician practices.

          We conducted our review in accordance with the Quality Standards for Inspections issued
          by the President’s Council on Integrity and Efficiency.




          5	
                    We obtained a list of hospitals from HCFA’s Online Survey and Certification Reporting System.
                    The list contained 6,164 hospitals. We selected only general, short-term hospitals leaving us
                    with a list of 5,093 hospitals. After further discussion, we decided to limit our analysis to not-
                    for-profit and for-profit hospitals, excluding government owned hospitals. We selected our
                    sample from this list of 3,610 hospitals.


Hospital Ownership of Physician Practices                  8                                            OEI-05-98-00110
                                                 FINDINGS

Hospitals are purchasing and operating physician practices in significant
numbers

          Based on our review of the Internet, phone book listings and information from the fiscal
          intermediaries, we estimate that 62 percent6 of for-profit and not-for-profit general, short-
          term hospitals purchased or owned a physician practice. Using only AHA data gathered in
          1996, our estimate decreases to 51 percent.7

          Other information also indicates that ownership of physician practices by hospitals is
          significant. According to the Health Care Advisory Board, a group that serves chief
          executives and senior administrators of more than 1,400 hospitals and health systems, the
          number of physician practices owned or managed by a hospital rose from 4,126 practices
          in 1993 to 11,234 practices in 1995, an increase of 172 percent. In another study, the
          Center for Healthcare Industry Performance Studies surveyed hospitals, insurance
          companies, physician management companies and others about recent purchases of
          physician practices. Based on the results of their survey, hospitals were responsible for 83
          percent of the purchased practices they reviewed.

Fiscal intermediaries are frequently unaware of hospital ownership of physician
practices

          Of the hospitals we identified as owning physician practices, the FIs knew about the
          ownership about 50 percent of the time. This lack of knowledge could lead to the inability
          of the FIs to ensure that hospitals are accounting for physician practices properly in
          hospital cost reports, resulting in excessive Medicare reimbursement. This vulnerability is
          discussed in our next finding.

          At the time we were conducting our study, there was no requirement for hospitals to
          report to HCFA or the FIs the purchase of physician practices unless the hospital was
          requesting provider-based status for these practices.

          In 1998, HCFA reports that few hospitals requested provider-based status. These
          situations are known to the FIs. Other ways fiscal intermediaries became aware of
          hospital owned physician practices were through a review of hospital marketing materials,
          newspaper articles or by word of mouth. In other cases, the FIs became aware of the
          ownership of a physician practice(s) while auditing the hospital cost report for other
          reasons or through beneficiary complaints.




          6
                    ±6.48 at a 90 percent confidence level
          7
                    ±6.71 at a 90 percent confidence level


Hospital Ownership of Physician Practices                    9                            OEI-05-98-00110
Lack of knowledge of hospital ownership of physician practices presents a fiscal
vulnerability to the Medicare program

          Fiscal intermediaries are often unaware of hospital owned physician practices and this
          handicaps their ability to ensure that hospitals have appropriately handled the costs
          associated with these practices in hospital cost reports. While we could not estimate the
          extent of inappropriate Medicare reimbursement caused by FIs being unaware of the
          purchase and ownership of physician practices, the potential amounts paid inappropriately
          could be substantial. Medicare losses can occur whenever hospitals, intentionally or not,
          inappropriately claim Medicare reimbursement for the operating costs of provider-based
          practices when their physician practices are, in reality, free-standing.

Provider-based cost report vulnerabilities

          If a hospital chooses to handle a practice as provider-based and the practice meets the
          criteria for provider-based status, then Medicare requires the hospital to report the costs
          and charges of the practice as reimbursable services in the cost report to receive Medicare
          payment. However, if a hospital fails to seek provider-based status for their practice but
          claims the costs for the practice in the cost report, Medicare could be paying excessive
          amounts for services provided in the practice.

          For example, Medicare reimbursed hospitals approximately $548 million for outpatient
          clinic services in Fiscal Year 1996. In some cases, hospitals may have included operating
          costs for physician practices that they purchased even though these practices do not meet
          the eight criteria for provider-based status. In these cases, some portion of the $548
          million could have been reimbursed inappropriately. We do not mean to infer that the
          services provided in these situations were inappropriate, only that the method used to
          reimburse the hospital may have caused Medicare to pay more than it should.

Free-standing cost report vulnerabilities

          If the hospital elects to treat the physician practice as free-standing, the hospital excludes
          the costs of operating the practice from Medicare reimbursement through the cost report.
          Medicare requires the hospital to report the costs of operating the practices but must
          indicate that they are nonallowable costs. If a hospital fails to do so and the FI fails to
          catch the mistake, a substantial amount of Medicare reimbursement could be in question.

          For example, one hospital in our sample reported $903,658 in nonallowable costs for
          physician practices it owns. Using this amount for all hospitals that we believed owned
          physician practices but were unknown to the FIs, the potential amount that hospitals
          should have excluded from their reimbursable costs was $726 million.




Hospital Ownership of Physician Practices           10                                      OEI-05-98-00110
          If the $726 million was not excluded from total costs, Medicare would have reimbursed
          $86.4 million8 inappropriately. This is not an estimate of program losses, but rather an
          example of the potential extent of the problem that could exist if FIs are unaware of
          hospital purchase and ownership of physician practices.

Difficulty in discovering these vulnerabilities

          Most likely the FI would never discover these situations unless the FI conducted a full
          scale audit. Few hospitals are subject to full scale audits, possibly because the funding to
          conduct such audits may be prohibitive. The net result is that potentially overhead and
          operating costs for these purchased practices are paid twice or hospitals are receiving
          reimbursement for practices that do not meet the provider-based criteria.

          The possibility exists that Medicare carriers may also be making excess payments for
          physician office services they believe are being provided in a free-standing facility, when in
          fact these services are being performed in a provider-based facility. Medicare carriers may
          be reimbursing physicians for office operating costs that have already been paid by the FI
          through interim payments.

          In the future, HCFA is changing Medicare’s payment method for outpatient services to
          that of a prospective payment system (similar to the way Medicare pays for hospital
          inpatient services). However, this does not remove the need for the fiscal intermediaries
          to be aware of hospital owned physician practices. The implementation of this new
          payment method would highlight the different payment rates between settings. As a
          result, decisions about where to provide services may become more dependent on which
          setting is more profitable, rather than which setting is most clinically appropriate. Thus,
          hospitals may continue to have an incentive to acquire and treat physician practices as
          provider-based.

Current HCFA efforts begin to address this issue, but may not go far enough

          The HCFA is committed to gathering information about hospital purchase of physician
          practices. Through four separate actions, HCFA is beginning to collect information that
          may assist the fiscal intermediaries in determining whether hospitals are accounting for
          physician practices appropriately in their cost reports. Unfortunately, these efforts may
          fall short as they will not ensure that FIs are aware of hospitals’ past and present
          purchases of physician practices or how hospitals are treating the operating costs of these
          practices in their cost reports.




          8	
                    Using Sudaan, a statistical package that accounts for stratified samples, we estimated that $726
                    million would represent the amount of money that should have been excluded from those hospital
                    cost reports where the FI appeared to be unaware of the ownership of physician practices. We
                    then estimated, using Fiscal Year (FY) 1996's Hospital Minimum Data Set, the percent of
                    Medicare costs to Medicare charges for outpatient clinics. According to our calculations, this
                    amounted to 11.9 percent. We then multiplied the $726 million by 11.9 percent to arrive at
                    $86.4 million.


Hospital Ownership of Physician Practices                11                                          OEI-05-98-00110
          In May 1998, HCFA issued a program memorandum requiring hospitals, as part of the
          “Provider Cost Report Reimbursement Questionnaire” submitted with the annual cost
          report, to answer questions about whether the facility purchased a physician’s practice.
          This was effective for cost reporting periods ending on or after June 30, 1998. The
          questions specifically target purchases for the cost reporting year being filed. It does not
          ask about practices that the hospital may have purchased in years prior to the current cost
          report year.

          Entities, such as hospitals and physician practices, applying for a Medicare provider
          number must complete a provider enrollment application (HCFA 855). This form also
          solicits ownership information and providers may use this form, or some other means, to
          inform HCFA and its contractors of a change in ownership. Again, this document does
          not request information about past purchases.

          In December 1997, HCFA published proposed regulations changing the conditions of
          participation for hospitals. As part of the proposed regulations, HCFA would require that
          hospitals report purchases of physician practices if they plan on seeking provider-based
          status for these practices.

          Currently, HCFA uses eight criteria to determine whether a practice can be considered
          provider-based. These criteria are contained in a program memorandum published in
          August 1996 and again in May 1998. (See Appendix A for a list of the criteria.) As part
          of the proposed regulations for Outpatient Prospective Payment, HCFA proposes to set in
          regulation the criteria that facilities must meet to be considered part of the hospital for
          cost reporting purposes. Again, it will only require hospitals to notify HCFA if the
          hospital plans on seeking provider-based status for the physician practices.

          The proposed regulations for Outpatient Prospective Payment also do not require a
          hospital to report the purchase of a physician practice if it elects to treat the practice as
          free-standing. The HCFA has acknowledged the vulnerability free-standing entities can
          present in its proposed regulations. To address this vulnerability, providers will be
          required “...to develop detailed work papers showing the exact cost of the services,
          including overhead, provided to or by the free-standing entity and show those carved out
          costs as non-reimbursable cost centers in the provider’s trial balance.” This should help
          alert FIs to hospitals’ ownership and purchase of physician practices as long as the scope
          of the FI audit includes a review of this information.

          Many, but not all, of the vulnerabilities mentioned in this report will be alleviated with
          passaged of the proposed outpatient prospective payment system regulations and if HCFA
          is able to enforce its provider-based policies, with respect to hospital purchased physician
          practices. Such will not be the case, however, if hospitals fail to: (1) report their
          physician practice purchases to the fiscal intermediaries, and (2) inappropriately claim
          overhead expenses for free-standing facilities in their cost report.




Hospital Ownership of Physician Practices           12                                     OEI-05-98-00110
Provider-based status increases beneficiary coinsurance with questionable
benefit to Medicare and its beneficiaries

          The current system that provides for provider-based entities came about as a policy
          decision by HCFA to accommodate the integration of the financial operations of merging
          health care delivery systems, such as hospitals and clinics. Prior to the inpatient
          prospective payment system, hospitals could achieve greater economies of scale in
          overhead costs, thus provider-based designation was beneficial to both the Medicare
          program and hospitals. However, as hospitals looked for ways to increase Medicare
          revenues, they established provider-based facilities that were one of the few remaining
          methods hospitals could use to receive cost-based reimbursement. These cost-based
          facilities, such as outpatient clinics and physician practices, shifted costs to “increase
          Medicare payments with no commensurate benefit to the Medicare program or its
          beneficiaries.”9

          The coinsurance paid by Medicare beneficiaries for services provided by provider-based
          physician practices are higher than for services provided in free-standing physician
          practices. A beneficiary’s coinsurance can vary substantially depending on how hospitals
          handle the physician practices they own. If a hospital treats a practice as free-standing,
          then a beneficiary is responsible for 20 percent of the full Physician Fee Schedule.
          However, if a hospital elects to treat a practice as provider-based then a beneficiary is
          responsible for 20 percent of the hospital charges as well as 20 percent of the reduced
          Physician Fee Schedule for the physician’s services. The example in Table 1 demonstrates
          the impact on the beneficiary if a hospital elects to treat a practice as provider-based.

                   Table 1
                          Example Of Impact To Beneficiary Coinsurance By Type Of Facility
                    Patient Diagnosis and Procedure Performed: Male, age 70, is diagnosed
                    with diabetes and leg ulcers. Procedure performed is debridement of ulcer.
                                                                                        Beneficiary Coinsurance
                                                                    Service
                             Billing Provider                      Description          Provider-       Free-
                                                                                          Based       Standing
                                                                                         Facility      Facility
                                                                  Clinic &
                                   Hospital                   Treatment Room             $ 52.05       NONE
                                                                  Office Visit           $   8.83     $ 10.99
                                  Physician
                                                                  Debridement            $ 10.93      $ 13.66
                            TOTAL BENEFICIARY PAYMENT                                    $ 71.81      $ 24.65




          9
                    Federal Register, Vol. 63, No 173, September 8, 1998, pg. 47,588.


Hospital Ownership of Physician Practices                    13                                      OEI-05-98-00110
          In the example in Table 1, the beneficiary would incur a $71.81 coinsurance payment if the
          procedure is performed in a physician’s office with provider-based status, as opposed to a
          $24.65 coinsurance payment if the same procedure is performed in a free-standing
          physician’s office. The beneficiary in this example would have paid $47.16 more because
          the procedure was performed in a provider-based physician practice. It is likely that these
          same services could have been provided to the beneficiary in a free-standing physician’s
          office with no adverse effects to the beneficiary. This situation also raises questions on
          why different payment methods should apply to the same services.

          Medicare has recognized the unfair financial burden placed on beneficiaries when services
          are provided in a provider-based facility versus one that is free-standing. Proposed
          regulations for the outpatient prospective payment system, published in September 1998,
          changes the methodology for computing beneficiary coinsurance for hospital outpatient
          services. Currently, for some outpatient services, the beneficiary coinsurance equals 50
          percent or more of the total Medicare payments to hospitals.10 These proposed
          regulations will eventually transition the current beneficiary coinsurance to 20 percent of
          the prospective payment rate, rather than 20 percent of charges. However, for some
          outpatient services, this process may be lengthy and beneficiaries will be subject to
          artificially high coinsurance rates for the duration.




          10	
                    Medicare payments to provider-based facilities are affected by the amount of coinsurance they
                    collect from beneficiaries. The greater the provider-based facility charge to the patient the
                    greater the patient coinsurance and the lower the Medicare payment.


Hospital Ownership of Physician Practices                 14                                          OEI-05-98-00110
                                        RECOMMENDATIONS

          Provider-based status for hospital owned physician practices has a significant impact on
          both Medicare and its beneficiaries. At issue is whether the site, or ownership of the site,
          where the service is rendered should dictate a higher payment amount by the Medicare
          program and the beneficiary.

          Prospective payment for outpatient services will highlight for hospitals the different
          payment rates between service settings. Outpatient prospective payment rates may result
          in higher aggregate payments for some services performed in provider-based facilities
          versus payment for those same services performed in free-standing facilities.

We recommend that HCFA change its policy and eliminate the provider-based
designation for hospital owned physician practices.

          The HCFA should require that hospitals treat all purchased physician practices and those
          they currently own, as free-standing entities. This would financially benefit Medicare
          beneficiaries by eliminating the coinsurance inequities they are currently experiencing
          when they receive services in provider-based, rather than free-standing, facilities.

          The Medicare Payment Advisory Commission in a March 1998 report expressed its
          concerns about the effects of inappropriate payment levels that, if too low, would restrict
          beneficiary access to care or prompt shifts of the site of services for financial rather than
          clinical reasons. On the other hand, they also expressed concern that if the rates are too
          high this would result in an increase in the volume of outpatient services that is unrelated
          to patient needs. They were also concerned regarding the impact on service delivery when
          Medicare pays different amounts based on the site of service. They believe that HCFA
          should move to a payment method that pays the same for the service provided regardless
          of the setting in which the service is performed.

          The HCFA could make exceptions to their policy, but only if the hospital is able to
          demonstrate to the FI that the purchased physician practice is part of the hospital campus.
          The physician practice site is part of the hospital campus if it is located at contiguous
          buildings on the same campus and under common direction. The burden of proof to this
          fact should be born by the hospital.

          We recognize that enforcement may be difficult. Because FIs perform a very limited
          number of hospital cost report audits on an annual basis, they must rely on the hospital, or
          happenstance, for information about hospital ownership of physician office practices.
          Therefore, monitoring of hospital compliance will be necessary. Even under prospective
          payment, procedures will need to be developed to ensure that hospitals are not billing for
          services provided by these entities and receiving payments other than under the Physician
          Fee Schedule.




Hospital Ownership of Physician Practices          15                                     OEI-05-98-00110
We recommend that HCFA require hospitals to report all purchases of physician
practices or clinics and declare how the costs associated with the operation of
these entities are handled in hospital cost reports.

          Regardless of whether HCFA eliminates provider-based status, it will continue to be
          important that fiscal intermediaries be aware of current and past purchases of physician
          practices.

          We offer the following solutions to implement this recommendation:

          1.	       Clarify the language on the “Provider Cost Report Reimbursement Questionnaire”
                    to require hospitals to report the purchase of physician practices, including past
                    purchases and those purchased by hospital subsidiaries.

          2.	       Include in any proposed regulations requiring the reporting of hospital ownership
                    of physician practices the reporting of past purchases and a declaration of whether
                    these practices have been treated as provider-based or free-standing in the
                    hospital’s cost reports.

          3.	       Conduct hospital surveys, using Medicare Integrity Program funds from the Health
                    Insurance Portability and Accountability Act, to determine whether physician
                    practices owned by hospitals are handled correctly in the cost report.

          4.	       Direct the fiscal intermediaries to conduct focused audits of the hospitals we
                    identified as having an ownership interest in physician practices of which the FIs
                    were unaware.

          5.	       Include the issue of hospital ownership of physician practices in the Quality Audit
                    Program, the oversight program HCFA implemented to ensure that FIs are
                    appropriately reviewing cost reports and correctly reimbursing hospitals.

          This recommendation offers options on how to identify and ensure that hospitals are
          correctly handling the costs associated with the operation of physician practices. We
          recognize that HCFA is proposing regulations that will require hospitals to keep detailed
          work papers identifying the free-standing entities as non-reimbursable cost centers. This
          should help FIs identify cost associated with hospital purchased physician practices.

We recommend that HCFA seek legislation to be able to sanction hospitals for
failure to report the ownership of physician practices.

          Hospitals failing to inform HCFA or its fiscal intermediaries of the ownership or purchase
          of physician office practices, regardless of whether or not these physician offices are
          provider-based or free-standing, or were purchased in the past, should be sanctioned.




Hospital Ownership of Physician Practices            16                                     OEI-05-98-00110
Continuing work

          Equally as important as ensuring that FIs handle correctly the costs from the operation of
          these physician practices and reimburse appropriately, is the process that HCFA uses to
          determine if a physician practice meets the provider-based criteria. This issue is currently
          under review by the Office of Inspector General.

          An additional area we plan to review includes whether physician services provided in
          provider-based facilities are appropriately billed to Medicare. We also plan to compare
          the payment for services performed in provider-based settings with those performed in
          free-standing settings. We will compare these payment rates to those proposed in the
          outpatient prospective payment regulations to determine which payment rates are higher.




Hospital Ownership of Physician Practices          17                                     OEI-05-98-00110
                                        AGENCY COMMENTS

          We requested and received comments from the Health Care Financing Administration.
          Their comments are included in Appendix B. The HCFA concurred with two of our three
          recommendations. They did not concur with our recommendation to change its policy and
          eliminate provider-based designation for hospital owned physician practices.

          The HCFA recognizes that the current system may result in abuse of Medicare's payment
          system in some cases. They state that it would be difficult to construct rules that
          differentiate physician practices from outpatient clinics to include one and exclude the
          other from designation as provider-based. In the long run, HCFA believes the most
          effective alternative to avoid abuse of the payment system is to move further toward the
          elimination of the differences in payments across sites that make advantageous the
          designation of physician practices as provider-based.

          We appreciate HCFA’s positive response to our report. We agree with their long-term
          plans of eliminating differences in payments for similar services across sites. However, we
          are uncertain whether the current set of provider-based standards, as well as the proposed
          set of regulations, can adequately safeguard Medicare’s payment system. We are
          currently examining the process of designating facilities as provider-based. We hope that
          the results of this additional work will be helpful in resolving the problems that remain
          with the current system.




Hospital Ownership of Physician Practices         18                                    OEI-05-98-00110
                                                                              APPENDIX A
                        Provider-Based Criteria


Program Memorandum (Intermediaries), HCFA Pub. 60A, Transmittal No. A-96-7 August 1,
1996

Reissued as Transmittal N. A-98-15, (May 1, 1998)

SUBJECT: Policy Clarification: Provider-Based Designation

PURPOSE:

The purpose of this program memorandum (PM) is to consolidate and clarify the Health Care
Financing Administration’s (HCFA’s) policy regarding provider-based and free-standing
designation decisions. The various elements of this policy have been issued previously in
regulations, program manuals, and letters to HCFA regional offices (ROs) or providers. This
policy applies to all such designation decisions regarding any provider of services under Medicare,
including physician’s practices or clinics that state they are part of a provider.

BACKGROUND:

The term or designation “provider-based” is an outgrowth of the Medicare cost reimbursement
system. The main purpose of the provider or facility-based designation is to accommodate the
appropriate accounting and allocation of costs where there is more than one type of provider
activity taking place within the same facility/organization, e.g., a hospital-based skilled nursing
facility. This cost allocation and cost reimbursement more often than not results in Medicare
program payments that exceed what would have been paid for if the same services were rendered
by a free-standing entity.

With the growth of integrated delivery systems, HCFA has received numerous requests from
entities requesting provider-based status. These requests, if approved, increase the portion of the
facility’s general and administrative costs that are supported by the Medicare program with no
commensurate benefit to Medicare and its beneficiaries. Therefore, it is critical that HCFA
designate only those entities that are unquestionably qualified as provider-based.

For example, some hospitals are purchasing physicians’ clinics and multiple clinics in areas far
from the licensed hospital and designating the clinics as “outpatient departments” of the hospital.
If Medicare were to approve such designation as an “outpatient department” the hospital would
then be allowed to increase Medicare payments by shifting overhead costs to the “outpatient
department” and by increasing payments for indirect medical education. In addition to the
payment impact, the Medicare coverage of “incident-to” services would also be affected if a
physician’s office is redesignated as a hospital outpatient department.

Medicare beneficiaries are also subject to an increased financial liability. In the example above of a
hospital acquired physician practice, the beneficiary pays the usual deductible and co-insurance for
physician services which are capped by the physician fee schedule. He is also responsible for a


Hospital Ownership of Physician Practices        19                                      OEI-05-98-00110
                                                                               APPENDIX A
                        Provider-Based Criteria


second deductible and co-insurance for a “clinic visit” or “facility fee” to the hospital.
These charges are not subject to the Medicare allowable charge or limiting charge restrictions of a
physician’s office.

Moreover, it should be noted that it is the intent of existing statutory and regulatory criteria for
Medicare to operate as a prudent purchaser of services that enhance the care of beneficiaries.
Medicare must comply with Congressional intent as reflected in §1861(v)(1)(A) of the Social
Security Act to pay only for those costs that are necessary for the efficient delivery of needed
health services. The statute at §1861(v)(1)(A) also provides general and specific criteria for
developing payment rules to carry out the basic intent of the law as well as provisions when
aggregate reimbursement produced by existing methodologies proves to be inadequate or
excessive.

POLICY STATEMENT:

It is HCFA’s policy that the following applicable requirements must be met before an entity can be
designated as part of a provider for payment purposes:

1. The entity is physically located in close proximity of the provider where it is based, and both
facilities serve the same patient population (e.g. from the same service, or catchment, area);

2. The entity is an integral and subordinate part of the provider where it is based, and as such, is
operated with other departments of that provider under common licensure (except in situations
where the State separately licenses the provider-based entity);

3. The entity is included under the accreditation of the provider where it is based (if the provider
is accredited by a national accrediting body), and the accrediting body recognizes the entity as
part of the provider;

4. The entity is operated under common ownership and control (i.e., common governance) by the
provider where it is based, as evidenced by the following:

!	        The entity is subject to common bylaws and operating decisions of the governing body of
          the provider where it is based;

!	        The provider has final responsibility for administrative decisions, final approval for
          personnel actions, and final approval for medical staff appointments in the provider-based
          entity; and

!	        The entity functions as a department of the provider where it is based with significant
          common resource usage of buildings, equipment and service personnel on a daily basis.

5. The entity director is under the direct day-to-day supervision of the provider where it is


Hospital Ownership of Physician Practices         20                                      OEI-05-98-00110
                                                                                APPENDIX A
                        Provider-Based Criteria


located, as evidenced by the following:

!	        The entity director or individual responsible for day-to-day operations at the entity
          maintains a daily reporting relationship and is accountable to the Chief Executive Officer
          of the provider and reports through that individual to the governing body of the provider
          where the entity is based; and

!	        Administrative functions of the entity, e.g., records, billing, laundry, housekeeping and
          purchasing, are integrated with those of the provider where the entity is based.

6. Clinical services of the entity and the provider where it is located are integrated as evidenced by
the following:

!	        Professional staff of the provider-based entity have clinical privileges in the provider where
          it is based;

!	        The medical director of the entity (if the entity has a medical director) maintains a
          day-to-day reporting relationship to the Chief Medical Officer or other similar official of
          the provider where it is based;

!	        All medical staff committees or other professional committees at the provider where the
          entity is based are responsible for all medical activities in the provider-based entity;

!	        Medical records for patients treated in the provider-based entity are integrated into the
          unified records system of the provider where the entity is based;

!	        Patients treated at the provider-based entity are considered patients of the provider and
          have full access to all provider services; and

!	        Patient services provided in the entity are integrated into corresponding inpatient and/or
          outpatient services, as appropriate, by the provider where it is based.

7. The entity is held out to the public as part of the provider where it is based (e.g., patients know
they are entering the provider and will be billed accordingly);

8. The entity and the provider where it is based are financially integrated as evidenced by the
following:

!	        The entity and the provider where it is based have an agreement for the sharing of income
          and expenses; and




Hospital Ownership of Physician Practices          21                                      OEI-05-98-00110
                                                                                APPENDIX A
                        Provider-Based Criteria


!	        The entity reports its cost in the cost report of the provider where it is based using the
          same accounting system for the same cost reporting period as the provider where it is
          based.

DETERMINATIONS:

Determinations concerning whether an entity is provider-based (e.g., common licensure,
governance, professional supervision criteria, reimbursement and accounting information) will be
made by the appropriate HCFA RO components, i.e., the RO Division of Health Standards and
Quality and the RO Division of Medicare with the assistance of the State survey agencies
and the fiscal intermediary.

Please note that the issuance of this clarifying instruction may result in identification of previous
provider-based decisions that would not be in accordance with the criteria described in this PM.
In those instances, the ROs are not precluded from taking a corrective action on such erroneous
designation/determinations. However, any corrective action is to be applied prospectively.

This PM may be discarded after JULY 31, 1997.

For further information, please contact David Goldberg at (410) 786-4512.




Hospital Ownership of Physician Practices           22                                     OEI-05-98-00110
                                                 APPENDIX B
                             Agency Comments





Hospital Ownership of Physician Practices   23         OEI-05-98-00110
                                                 APPENDIX B
                             Agency Comments





Hospital Ownership of Physician Practices   24         OEI-05-98-00110
